No. 19-685
IN THE

Supreme Court of the United States
EDWARD GEORGE MCGREGOR,
Petitioner,
v.
THE STATE OF TEXAS,
Respondent.
On Petition for a Writ of Certiorari
To the Texas Court of Criminal Appeals
RESPONDENT’S PROOF OF SERVICE
As required by Supreme Court Rule 29.3, I certify that on May 4, 2020,
three copies of Respondent’s Brief in Opposition were sent via both third-party
commercial carrier and electronic mail to Petitioner’s counsel of record,
Randolph L. Schaffer Jr., 1021 Main, Suite 1440, Houston, TX 77002; and
email: noguilt@swbell.net. All parties required to be served have been served.
I am a member of the Bar of this Court.
s/ Joseph P. Corcoran
JOSEPH P. CORCORAN
Assistant Attorney General
Supervising Attorney for
Non-Capital Appeals
Counsel of Record
P.O. Box 12548, Capitol Station
Austin, Texas 78711
(512) 936-1400
Joseph.corcoran@oag.texas.gov
Counsel for Respondent

